<html>
<title> - AZERBAIJAN: U.S. ENERGY, SECURITY, AND HUMAN RIGHTS INTERESTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






     AZERBAIJAN: U.S. ENERGY, SECURITY, AND HUMAN RIGHTS INTERESTS

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2015

                               __________

                            Serial No. 114-6

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE 

93-285 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                            
   
   
   
   
   
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan



























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Audrey Altstadt, Ph.D., fellow, Kennan Institute, Woodrow Wilson 
  International Center for Scholars..............................     6
Svante Cornell, Ph.D., director, Central Asia-Caucasus Institute, 
  School of Advanced International Studies, Johns Hopkins 
  University.....................................................    21
The Honorable Richard Kauzlarich, adjunct professor, School of 
  Public Policy, George Mason University (former American 
  Ambassador to Azerbaijan)......................................    32

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Audrey Altstadt, Ph.D.: Prepared statement.......................     9
Svante Cornell, Ph.D.: Prepared statement........................    24
The Honorable Richard Kauzlarich: Prepared statement.............    35

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on Europe, 
  Eurasia, and Emerging Threats:
  Prepared statement of the Honorable Michael R. Turner, a 
    Representative in Congress from the State of Ohio............    52
  Prepared statement of the Honorable Michael G. Fitzpatrick, a 
    Representative in Congress from the Commonwealth of 
    Pennsylvania.................................................    53

 
     AZERBAIJAN: U.S. ENERGY, SECURITY, AND HUMAN RIGHTS INTERESTS

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2015

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. The subcommittee is called to order.
    This is the inaugural meeting of the Europe, Eurasia, and 
Emerging Threats Subcommittee for the 114th Congress. I am 
happy to introduce our new ranking member, Greg Meeks of New 
York. I am sure that we will have a very productive session 
together in these next 2 years.
    So, we are very happy to have you with us, Gregory.
    Before I go into my opening statement, I want to recognize 
that we are joined in the audience by Sarah Paulsworth--Sarah, 
where are you?--and Sarah's husband Emin, and I am going to 
pronounce this, Heseynov, who helped to found the Azeri NGO 
dedicated to journalist safety. When it became clear that he 
was wanted by the authorities, he asked the United States 
Embassy for help. Our Embassy turned him away, but he was 
granted safe haven in the Swiss Embassy, where he is today. And 
again, I guess it is a sad day when the Swiss are more 
courageous than the Americans.
    Our topic for this afternoon is the U.S. relationship with 
Azerbaijan, a country of about 9 million people on the coast of 
the Caspian Sea, sandwiched between Iran, Russia, Armenia, 
Georgia, and Turkey, a pretty tough neighborhood.
    Our relationship with Azerbaijan is normally described as 
being comprised of three parts: Energy, security, and human 
rights. Azerbaijan is rich in oil and natural gas. Since the 
1990s, it has grown into a notable exporter of oil, which is 
making Azerbaijan a relatively and notably wealthy country.
    Now, with the construction of the Southern Gas Corridor, 
Azerbaijan has the potential to play a key role in helping to 
provide the European Union with sources of natural gas that is 
not controlled by Russia.
    The Azerbaijani Government has been a source of 
irreplaceable support for the United States and NATO operations 
in Afghanistan. Azerbaijan is a key link in the northern 
distribution network which supplies and carries troops battling 
in Afghanistan.
    On this point, I would like to mention especially I want to 
thank the Azerbaijani Government for their cooperation in 
saving the lives of numerous U.S. military personnel. While 
acknowledging this important context, it is impossible to 
overlook Azerbaijan's poor track record when it comes to civil 
liberties. Azerbaijan, as I say, is in a very tough 
neighborhood and borders on other countries--this is 
important--it borders on other countries that have far worse 
human rights records. But human rights violations in one 
country does not justify or excuse them in another country. So, 
we need to keep these in perspective on both sides of that 
argument.
    The disturbing reports of 90-plus political prisoners held 
by the Azerbaijani Government just can't be ignored. It would 
be better for all concerned if the Azerbaijani Government, 
which has many attributes which we are putting into our 
calculation, but it would certainly be better for all of us--
these attributes also include what, freedom of religion and 
other important elements. Of course, it would be a really good 
thing if the Azerbaijani government wasn't so thin-skinned 
about criticism because that leads them to actions that really 
are unacceptable and unnecessary, causing all of us problems, 
including themselves.
    The purpose of this hearing is not--I repeat not--to 
unfairly bash Azerbaijan. But disregarding its shortcomings 
will not improve the situation, as was evident the other day 
when, after Christmas in Azerbaijan, the authorities raided and 
shut down the Baku Bureau of Radio Free Europe and Radio 
Liberty. That was, of course, shutting Radio Liberty and Radio 
Free Europe is just unacceptable.
    I, myself, have advocated, for example, that the same Azeri 
language service that we are talking about that was used in 
Radio Liberty and Radio Free Europe, that that same Azeri 
language service covered northern Iran and has serviced the 
Azeri people in Iran. The Baku Bureau and its employees should 
be released and be free to go about their work.
    Again, the purpose of this hearing is not to attack or bash 
Azerbaijan. It serves everyone's interest to recognize the many 
positive aspects of our relationship with Azerbaijan and the 
great potential that Azerbaijan has to play a positive role, 
and it is already playing a positive regional role. This 
positive role in that region will have significance for the 
entire planet.
    There is a legitimate fear, for example, of radical 
Islamic's subterfuge of Azeri society and Azeri government. 
Unfortunately, repressing democratic elements in any society 
increases the appeal that such radicals have. So, it is in no 
one's best interest to being thin-skinned about criticism and 
to act against people who are criticizing your government for 
whatever reason.
    The people of Azerbaijan are not fanatics and neither is 
their government. They have much to be proud of, but flaws that 
should not be ignored.
    I look forward to hearing from the panel today and hope 
that their conversation with us will leave us with some 
constructive recommendations of how we can improve our 
relations with Azerbaijan and how Azerbaijan can improve their 
relations with us.
    I would hope that, without objection, all members will have 
at least 5 legislative days to submit additional questions or 
extraneous materials for the record.
    Before recognizing Mr. Meeks for his opening statement, I 
would like to recognize that we have a very special guest with 
us. We have one whose husband is, of course, being held in 
Azerbaijan. We wish him well and hope that maybe this hearing 
could say we are friends; let this guy go, please.
    We also have a wonderful other good friend, Dan Burton--
there he is--Dan Burton, who actually chaired this committee a 
couple of years ago and has been a dear friend to all of us and 
one of the most hard-working and responsible Members of 
Congress that I met in my 26 years here. He is a fine man.
    Dan, we are very, very pleased that you have come here to 
observe what we are doing today.
    With that said, Mr. Meeks, please feel free to have your 
opening statement.
    Mr. Meeks. Thank you, Mr. Chairman.
    I look forward to working with you over the next 2 years. 
We have done some traveling together, and I think that we will 
be working collectively together to try to stay focused on the 
issues of this subcommittee. You know, I look forward to 
working with you and our colleagues on both sides of the aisle 
on the important issues that fall under the subcommittee's 
jurisdiction.
    In this subcommittee it is up to us to ensure that American 
interests in Europe and Eurasia are protected and promoted, but 
also that the common ideals and interests that we share with 
our allies and partners in the region are held to the highest 
standards. It is an honor to take up the ranking member role 
during these trying times in the region.
    Azerbaijan has a remarkable and notable history. Well 
before Azerbaijan gained independence in 1991, it made an 
important and global distinction when it became, albeit 
briefly, one of the world's first Muslim democratic republics.
    Since then, Azerbaijan has had significant success in 
navigating the difficult path to becoming an open-market 
economy. But success does not come without concern in other 
areas.
    I believe our witnesses today will highlight some of the 
areas of concern, including human rights and the lack of 
democratic governance. But I hope we can also discuss ways in 
which the United States can support progress. I hope we can 
talk about the broader scope of cooperation with the EU and 
OSCE on some of the challenges.
    Human rights and democracy advancements will not happen in 
a vacuum, and we must work in a multilateral way to support 
progress. The U.S.-Azerbaijan relationship is a partnership 
that we value. Azerbaijan is a critically-located partner in 
the South Caucasus Region. It is a secular nation that 
neighbors Iran and works closely with the United States. That 
is not an easy position to be in. It borders Russia and is the 
key to the EU on energy diversification. In short, our 
partnership is not one we can take for granted.
    Today's hearing is for me an opportunity to examine the 
tough issues and potential for advancement in the nation that I 
believe has promise. Azerbaijan's success is, of course, 
broadened by its natural resources. But I know that our 
Government is also committed to helping Azerbaijan grow the 
non-oil sectors of the economy to avoid overreliance.
    We are also committed to fostering a vibrant, open society 
and upholding democratic ideals as a part of the development 
process. We want to build on Azerbaijan's success in using its 
resources, its resource wealth, to reduce poverty levels 
dramatically and grow its middle class and create jobs.
    Ensuring the continued success of Azerbaijan's development 
and encouraging democratic progress is of strategic importance 
to the United States. Our interests on all fronts are 
critically linked. The energy and security cooperation we enjoy 
is important. But these things are not separate and apart from 
the equally-important need to ensure that we address civil 
society's push for an open and democratic society.
    I hope to hear from our experts today on the recent 
setbacks in this area. President Aliyev and the Azerbaijan 
Government should know that we are concerned with the treatment 
of several members of the Azeri civil society.
    I know that progress is not always linear and not often
    as quick as we would like. In fact, right here in the 
United States we are still perfecting our democracy and our 
great nation. And we took too long, in my estimate, in this 
country to correct some of our own human rights mistakes. But 
what we want to do is work together to share methods to make 
sure all voices are respected.
    So, I look forward to a fruitful discussion where we can 
explore what we in Congress can offer and do to positive growth 
in Azerbaijan that includes all members of its society, for it 
is a very important ally, and we do need to work collectively 
together to make life better for all of our people and our 
citizens.
    And I yield back.
    Mr. Rohrabacher. Thank you, Mr. Meeks.
    If any other member of the hearing panel would like to--Mr. 
Sires, maybe a 1- or 2-minute opening statement--feel free.
    Mr. Sires. Thank you, Mr. Chairman, for today's hearing on 
Azerbaijan. Thank you for being here today.
    Since Azerbaijan broke free of the Soviet Union over two 
decades ago, the U.S. has had a concerted interest in 
strengthening democracy in Azerbaijan. Azerbaijan is unique, as 
it is a bridge between the East and the West. A peaceful, 
democratic, and prosperous Azerbaijan is in the best interest 
of the United States and our European allies.
    Unfortunately, there have been many obstacles to a fully-
recognized democracy in Azerbaijan, including ongoing 
government corruption and human rights abuses. I am deeply 
troubled by recent efforts by the government to crack down on 
civil society groups and independent media. As we all know, a 
democracy cannot exist without the ability of the citizens to 
freely exercise their voices.
    I look forward to hearing from our esteemed panel of 
witnesses on how Congress can shape policies that will assist 
in promoting democratic principles in Azerbaijan in order to 
strengthen our ties in the region.
    Thank you, and I yield back.
    Mr. Rohrabacher. Thank you.
    Mr. Deutch, do you have an opening statement?
    Mr. Deutch. I do. Thank you. Thank you, Chairman 
Rohrabacher and Ranking Member Meeks.
    I am honored to rejoin this subcommittee which covers a 
region with significant value for our national security and one 
that is facing many new and significant threats, and Azerbaijan 
is no exception to this. It is easy to understand what risks 
the country faces just by looking at its precarious geographic 
location with Russia to its north, which has shown irredentist 
actions toward its neighbors. To its south is Iran, a state 
sponsor of terrorism with nuclear weapons ambitions and a 
significant Azeri population. And Azerbaijan also shares a 
border with Armenia, with the unresolved Nagorno-Karabakh 
region in between.
    Azerbaijan has built up a multifaceted partnership with 
European countries and the United States. Its access to 
offshore ore deposits and the plan to build a pipeline via 
Turkey to southern Europe is an appealing prospect for many 
European countries as an alternative source to Russia's near 
monopoly as an energy provider to eastern Europe.
    Amid the list of threats coming out of Europe and the 
Middle East, our security and counterterrorism cooperation is 
of significant mutual value. That cooperation doesn't prevent 
us, in fact, nothing should prevent us from speaking out for 
human rights. And the human rights situation in Azerbaijan 
cannot be overlooked.
    NGOs are being intimidated and shuttered. Free media and 
journalism is being inhibited, and pro-democracy leaders are 
being incarcerated at alarming rates. Last December, Security 
Forces raided and shut down the Radio Free Europe/Radio Liberty 
office in Baku, and other U.S. programs like Peace Corps are 
closing shop.
    Regressive human rights policies like these are concerning. 
When it gets to the point that international civil society 
groups which are active in countries, in order to improve the 
democratic and human rights climate, are forced to pull back 
their presence out of fear of oppression and incarceration, it 
should send a loud signal to the government that its policies 
are heading in the wrong direction.
    The LGBT community, in particular, experiences a tremendous 
amount of social stigma, often in the form of physical abuse 
and harassment. And with restricted registration policies for 
civil society organizations, Azerbaijan is left with zero 
groups promoting the rights of LGBT people in the form of legal 
protections and public acceptance.
    These are important questions for Congress to ask. I thank 
the chairman for holding this public hearing.
    And I hope you will accept my apologies. I have two other 
hearings taking place at exactly the same moment. So, I will be 
back----
    Mr. Rohrabacher. How is it possible that somebody has two 
hearings at the same time? It almost always happens, the one 
you really want to go to--and you have got to go to them--and 
then, all of a sudden, there are three others scheduled.
    Well, thank you for joining us and sharing your thoughts 
with us, at least to kick it off today.
    So, we have three great witnesses today. First is Dr. 
Audrey Altstadt. I think is that the pronunciation? I am sorry 
if I got it wrong. Dr. Altstadt is a professor at the 
University of Massachusetts, Amherst, and currently spending a 
year in Washington as a Fellow at the Wilson Center.
    She has authored dozens of articles on Azerbaijan and has 
been following the issues in that country since the 1980s. She 
earned her PhD from the University of Chicago and is currently 
writing a book about Azerbaijan.
    We also have with us Ambassador Richard Kauzlarich--okay, 
that is good enough?--the Director of the Center for Energy 
Science and Policy at George Mason University. He has held a 
number of high-level positions within the State Department, 
including formerly being our Ambassador to Azerbaijan and 
Bosnia-Herzegovina. He also served as the National Intelligence 
Officer for Europe on the National Intelligence Council.
    Finally, we have Dr. Svante Cornell. He is the Director of 
Central Asia-Caucasus Institute and the Silk Road Studies 
Program at Johns Hopkins University. He is the author of four 
books and many articles on security studies and international 
relations. He is an expert on the Caucasus and earned his PhD 
from the University of Uppsala in Sweden.
    I am really bad on some of these foreign names. But 
Uppsala, all right.
    Listen, we welcome our witnesses, and we thank you for 
sharing your expertise with us today. I would ask if you could 
keep it down to 5 minutes and the rest for the record. You are 
certainly welcome to submit as long a statement as you want for 
the record. And then, we will follow up with questions after 
you have all testified.
    So, Doctor, you may proceed.

STATEMENT OF AUDREY ALTSTADT, PH.D., FELLOW, KENNAN INSTITUTE, 
        WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Ms. Altstadt. Thank you for the opportunity to be here 
today. I appreciate the fact that we are having this meeting.
    Azerbaijan is the only country that borders both Russia and 
Iran. It was ruled by both and it bears the vestiges of both in 
its politics and its culture. Its oil and gas wealth have made 
Azerbaijan a significant contributor to European energy 
security and gives it the potential to be an important partner 
in this and other commercial dealings.
    The government has cooperated with the United States in the 
war on terror. At the same time, the Government of Azerbaijan 
must deal with pressures from its neighbors and near neighbors, 
and these are challenges that any government in Baku would have 
to face, by virtue of its location.
    Azerbaijan's independence and internal stability are 
necessary, but not sufficient, for it to be a full and healthy 
functioning partner as a state or a society. Nor does stability 
alone make it a good partner.
    Azerbaijan today is not a democracy and its government does 
not respect human rights. The present government has been 
moving away from, and not closer to, pluralism, democratic 
elections, open discourse in society, freely-functioning media, 
and the observation of human rights. These restrictions have 
gradually increased over the last 10 years, but most radically 
so in the last 1\1/2\ to 2 years, since the Presidential 
election campaign of 2013. It has become worst of all since the 
spring and summer of 2014.
    Ruling circles have shown intolerance of criticism and 
protests. Yet, the criticism and protests have continued, 
raising fears of a potential Baku Maidan, as we have seen in 
Ukraine.
    The government of President Ilham Aliyev has carried out a 
preemptive strike against regime critics of political groups 
and parties, especially youth movements, human rights 
defenders, journalists, and the lawyers that defend them. These 
people are not against Azerbaijan's statehood, independence, or 
stability, but do oppose the ruling regime's policies and, 
increasingly, the ruling regime itself.
    The crackdown of 2014 is counterproductive and dangerous. 
Public discourse in civil society is the life breath of the 
body politic. Constricting the space for freedom of speech, 
assembly, and press, as we have seen in Azerbaijan, is 
suffocating to that body. The loser is Azerbaijan society, 
which is deprived of political participation and peaceful 
redress of grievances.
    But the government also loses because it is deprived of new 
ideas, the purifying fire of public debate, and the legitimacy 
which transparency bestows. Such restrictions, moreover, can 
drive the populace toward radicalism in its effort to find a 
venue for social and economic change.
    The European Parliament, the United States Subcommittee on 
Human Rights, and a number of other international and non-
governmental organizations have noted this disturbing trend in 
the last year and more. The Council of Europe Commissioner for 
Human Rights said, ``All of my partners in Azerbaijan are in 
jail.''
    The rhetoric of these repressions has taken a decidedly 
anti-American tone. In December, an article was published by 
the Presidential Chief of Staff, Ramiz Mehtiyev, which accused 
the United States of instigating color revolutions in Georgia 
and Ukraine, the Arab Spring, and the Maidan movement in 
Ukraine. He accused the U.S. of trying to destabilize the 
Aliyev government under the guise of protecting human rights.
    The alleged U.S. tools were NGOs and Azerbaijani citizens 
that Mehtiyev declared to be a fifth column within Azerbaijan. 
Such citizens, he added, were disloyal, and he named as one 
example Investigative Journalist Khadija Ismayilova who worked 
at Radio Liberty in Baku. Two days later, she was arrested, and 
by the end of the month, as we have noted here, the Radio 
Liberty, or Azadliq Radiosu, office in Baku was raided and 
closed, and its staff was questioned multiple times without an 
attorney being present.
    These statements and actions within Azerbaijan suggest that 
the Azerbaijani Government may be moving away from the West and 
increasingly toward Russia, which President Aliyev has recently 
called ``a good friend.'' It may be that a pro-Russian faction 
is in the ascendency, but it could not act without President 
Aliyev's knowledge and approval.
    This does not mean, however, that Azerbaijan's leaders are 
completely changing direction. It is more likely that they are 
seeking a new balance among neighbors and business partners. 
Baku's ruling elites do not want to lose the benefits of 
commercial deals with the West and the lavish lifestyle options 
available in western countries, including real estate, 
education for their children, and bank accounts in stable 
currencies protected by law.
    Azerbaijan's elites want to maintain these opportunities 
and privileges that the West offers and present themselves as 
western partners without actually fulfilling the obligations of 
a western state, a member of the OSCE and the Council of 
Europe, a country that observes human rights and holds free and 
fair elections. In short, they want to have it both ways.
    The United States should certainly evaluate Azerbaijan in a 
nuanced, holistic, and realistic light, but it is imperative 
that the United States not ignore or deny the Azerbaijan's 
regimes failings in human rights, media freedom, civil society 
and democratization.
    The U.S. owes it to the pro-democracy forces within 
Azerbaijan to speak up clearly and consistently for the defense 
of the same rights that are the foundations of the United 
States. The argument that the U.S. should set aside these 
failings in the interests of commercial gain or so-called 
stability, which the regime advertises, would constitute a 
betrayal of U.S. values and would further diminish the image 
and the moral power of the United States in Azerbaijan and in 
the world.
    Thank you.
    [The prepared statement of Ms. Altstadt follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Well, thank you, Doctor.
    And Dr. Cornell?

  STATEMENT OF SVANTE CORNELL, PH.D., DIRECTOR, CENTRAL ASIA-
 CAUCASUS INSTITUTE, SCHOOL OF ADVANCED INTERNATIONAL STUDIES, 
                    JOHNS HOPKINS UNIVERSITY

    Mr. Cornell. Thank you, Mr. Chairman. I have a longer 
written testimony for the record, and I will be summarizing 
some of the points here.
    I will start by saying that the U.S. relationship to 
Azerbaijan was once a well-functioning strategic partnership. 
Today it is dominated by tension and acrimony. In the next 
minutes, I will try to provide my perspective on why this is 
the case but, more importantly, what we can do about it.
    Mr. Rohrabacher. Doctor, could you hold on for one moment?
    Mr. Cornell. Sure.
    Mr. Rohrabacher. Is that a vote? Are those votes? No?
    You know, I have been here all these years; I can't figure 
out those lights yet. [Laughter.]
    Recess? All right, good.
    All right, you may proceed.
    Mr. Cornell. Thank you, sir.
    To start with, I would like to say a few words about why 
Azerbaijan in this region matters to the U.S. Several of the 
members here have mentioned these things.
    I will start by saying that, in a 1997 book, former 
National Security Advisor Zbigniew Brzezinski called Azerbaijan 
one of the five geopolitical pivot countries of Eurasia. 
Azerbaijan lies at the intersection of the key Eurasian powers, 
Russia, Iran, and Turkey. It is a bottleneck of the east-west 
corridor that connects Europe to Central Asia and beyond for 
the purposes of trade, for energy, but also for U.S. military 
access, as in Afghanistan.
    And I would say that in the present situation, where the 
two most acute challenges to the Trans-Atlantic Alliance are 
Russia's aggressive expansionism as well as Islamic radicalism 
emanating from the Middle East, Azerbaijan and its neighbors 
are actually a bulwark against both. There is, indeed, an 
opportunity in the existence of Muslim majority states that 
reject Russian projects of coerced Eurasian integration, 
maintain the openness of the east-west corridor into Central 
Asia, and remain committed to secular statehood. And, of 
course, this is all the more crucial, given Iran's continued 
jockeying for regional domination from Syria to Yemen and 
Turkey's turn toward an Islamism and anti-Western 
authoritarianism.
    This is not just a theoretical point. Looking back to 9/11, 
America's military response in Central Asia was made possible 
by the air corridor across Georgia and Azerbaijan, which you, 
Mr. Chairman, correctly characterized as irreplaceable.
    Now for most of the past decade, the broader regional 
picture is that America's ability to affect the developments in 
Azerbaijan and the entire region has been in decline. I would 
even say that at no time since the collapse of the Soviet Union 
has the U.S. had less influence over regional matters than it 
does today.
    Now this is the context, of course, of the discussion we 
are having today, and it is customary to blame the Azerbaijani 
domestic evolution for the decline of the U.S.-Azerbaijani 
bilateral relationship. That is, indeed, a factor. But, a 
decade ago, it is important to note that the Azerbaijani 
Government was considerably more responsive to U.S. criticism 
and advice on its domestic affairs.
    So, the question is, what has changed in the past decade 
and why is it not today? Now the most obvious point has been 
already made, which is that oil and gas has brought wealth to 
Azerbaijan. Twenty years ago it was a failing state. Today it 
is wealthy. There is a growing reluctance to take advice from 
abroad.
    A more important factor, I would argue, is the worsening 
regional security environment. Only in the past few years, 
Russia has invaded Georgia, invaded Ukraine, contributed to 
orchestrating a coup in Kyrgyzstan, and forced Armenia to 
abstain from any form of European integration.
    Russian subversion is on the rise everywhere in the region, 
and the case of Azerbaijan there are also growing tendencies 
not only by Iran, but also by Turkey, of meddling in internal 
affairs. And all of this has grown a powerful inhibition 
liberalization.
    Unfortunately, I would say that U.S. policies have actually 
been an important contributing factor to this situation. In 
fact, for the past 20 years, the U.S. relationship with 
Azerbaijan was built on the understanding that the U.S. has 
interests in several diverse areas, which you have mentioned 
and which are in the title of this hearing.
    Human rights and democracy was one area. The second was 
engagement on energy issues, and the third, of course, was 
cooperation on security affairs, including America's role in 
negotiating a solution to the Armenian and Azerbaijan conflict.
    If you will, these three areas formed a tripod that was the 
basis of U.S. policy, and the problem is that this tripod has 
faltered, because American engagement in energy issues and 
security issues over the past decade have declined, I would 
say, drastically. Now I want to be clear here. My argument is 
not that the U.S. has engaged too deeply in democracy 
promotion. The problem is that the U.S. has not provided enough 
attention to security----
    Mr. Rohrabacher. Is your microphone on?
    Mr. Cornell. I believe so.
    So, I want to be clear that my argument is not that the 
U.S. has engaged too deeply in democracy promotion. The problem 
is that it has not provided enough attention to security issues 
and energy issues. And the important fact is that these were 
the issues that provided America with leverage in Azerbaijan.
    Now the U.S. also made a number of missteps after the 
Russian invasion of Georgia. I could discuss these in detail, 
including how the Russian Reset was handled, the fact that the 
Turkish-Armenian normalization process was prioritized over the 
Nagorno-Karabakh conflict, all of which alienated Azerbaijan 
and reduced the value of the U.S. for its national interests.
    Now the U.S. has also not properly understood, I would say, 
the effect of inter-regime politics in Azerbaijan in this, and 
Dr. Altstadt alluded to that. As the current policy is not 
working, what can be done looking forward?
    My Institute has newly released a paper on Western Strategy 
in the South Caucuses, which I am sure your staff will be made 
available, in which we propose a detailed outline of what a new 
U.S. strategy toward the region would look like.
    Now some have argued for a tougher approach; that is, a 
policy that would include punitive measures. Of course, that 
would, first of all, amount of singling out Azerbaijan since 
the U.S. does not apply such policies for countries that have 
worse human rights records, and it would also be 
counterproductive in a country where compact frustration which 
they see as the American indifference to the hundreds of 
thousands of displaced people from the Karabakh conflict.
    More importantly, such an approach would also be certain to 
fail. Since the ruling elite presently does not see much of a 
meaningful U.S. involvement in key matters of national 
security, the U.S. today simply does not have the leverage to 
influence Baku's policies by the use of the proverbial stick. 
Instead, I feel that such steps would extinguish whatever 
influence the U.S. still has in the country.
    Instead, what I would call for and what we call for in our 
paper is a broad strategic re-engagement, not only of 
Azerbaijan, but of the entire region. I would say that in the 
past 20 years, whenever the U.S. has been strongly involved in 
the security issues and the energy issues of this region, the 
Azerbaijani Government has actually been responsive to 
criticism. When that has not been the case, like now, America's 
leverage has declined. So, going forward, I would say that the 
U.S. cannot expect realistically to see any progress in 
governance and human rights issues without a clear engagement 
on the issues of security and energy.
    Similarly, I think Azerbaijan's leaders should understand 
that they cannot expect U.S. support on security issues and 
energy issues without a commitment to reforms in governance and 
human rights. Again, this does not mean that a new policy 
should have less of an emphasis on human rights issues, but it 
does mean that the U.S. must engage the government on a broader 
front and do more to address the issues on which it worked 
effectively a decade ago. These are bolstering sovereignty and 
independence, addressing security issues, working seriously, 
which we have not done, to resolve the Armenian-Azerbaijan 
conflict, and re-engaging on energy politics. All of these also 
happen to be in the U.S. national interest.
    So, in closing, for both Azerbaijan's domestic situation 
and our bilateral relationship to improve, America's presence 
must once again be felt in the region, which it is not today.
    Thank you.
    [The prepared statement of Mr. Cornell follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    And we have been joined, also, by Congressman Keating. Do 
you have an opening statement that you would like to make 
before our next witness?
    Mr. Keating. Thank you, Mr. Chairman. It is great to be 
back here with yourself and Ranking Member Meeks.
    Like so many on the panel, I have had many discussions 
focused on Azerbaijan's strategic relevance and geopolitical 
importance. Its potential can't be underestimated. Yet, the 
potential alone of that cannot bear fruit in the global arena 
without adequate rule of law and basic protections and 
freedoms.
    Unfortunately, we have seen a drastic regression in the 
rule of law, freedom of expression, freedom of assembly, 
transparency, and other basic rights in Azerbaijan. And I am 
particularly concerned over the deliberate targeting of 
American and international NGOs and media. These organizations 
that have been able to provide vital assistance to local 
citizens have already been forced to close. They include IREX, 
the National Democratic Institute, the International Republican 
Institute, the U.S. Peace Corps, Transparency International, 
and Oxfam.
    Last month I spoke out in regard to the latest scapegoat of 
Azerbaijan authorities, Radio Free Europe. The government-
sponsored raid on Baku Bureau and the arrest of and continued 
detention of Khadija Ismayilova, as well as others, raise 
serious questions and concerns over the intentions of the 
Azerbaijan leadership and the desire to partner with the U.S. 
and the West as a whole.
    It should be noted that the regular conspiratorial 
pronouncements of Azeri officials against the U.S. and the West 
raise similar concerns. Yet, many of us who watch Azerbaijan 
continue to hope to see a change in the course of Azerbaijan. 
In this way, I urge the U.S. administration to prioritize these 
concerns when addressing Azerbaijan leadership. In particular, 
I hope that our Government will work to reopen Radio Free 
Europe in Baku and ensure a safe passage of Emin Heseynov, the 
husband of a U.S. Army servicewoman who spent the last 6 months 
sheltered in the Swiss Embassy in Baku.
    Again, I thank you for holding this important hearing and 
look forward to working with you on this important issue, Mr. 
Chairman.
    Mr. Rohrabacher. Thank you very much.
    Mr. Keating. I yield back.
    Mr. Rohrabacher. And now, for our last witness, Mr. 
Kauzlarich, go right ahead. Or, Ambassador, I should say.

    STATEMENT OF THE HONORABLE RICHARD KAUZLARICH, ADJUNCT 
  PROFESSOR, SCHOOL OF PUBLIC POLICY, GEORGE MASON UNIVERSITY 
           (FORMER AMERICAN AMBASSADOR TO AZERBAIJAN)

    Ambassador Kauzlarich. Thank you, Mr. Chairman, and thank 
you and the committee for holding these hearings and giving me 
the opportunity to testify.
    I have submitted a written statement for the record and, 
with your permission, I will summarize that statement now.
    I agree with the previous speakers that we are at a 
critical point in U.S.-Azerbaijani relations, though I take a 
little more positive view of what we have accomplished in two 
decades of successful diplomatic engagement. This engagement 
has been based on a clear set of bipartisan objectives. Despite 
the restrictions of Section 907 of the Freedom Support Act, 
which tied our hands in the early days in Azerbaijan, as well 
as the tragic war between Azerbaijan and Armenia regarding 
Nagorno-Karabakh, we have through those two decades supported 
the development and transportation of Azerbaijani energy 
resources. Through co-chairmanship of the OSCE Minsk Group, we 
have provided an opportunity for Armenia and Azerbaijan to 
pursue a peaceful settlement of the conflict on Nagorno-
Karabakh. And we have, especially since 9/11, engaged 
Azerbaijan in NATO and other international peacekeeping 
operations in Afghanistan and Kosovo.
    I am not saying this has been easy, especially when the 
United States has pressed Azerbaijan on democracy and human 
rights issues, but we are in a different place today. There has 
been a deterioration in U.S.-Azerbaijani relations. Part of 
this is due to external factors. The changing global energy 
situation means that Azerbaijan energy resources are less 
important today than they were in the 1990s, when I was 
Ambassador. Unfortunately, the Minsk Group has not led to 
Yerevan and Baku finding the political support to produce a 
peaceful settlement to the Nagorno-Karabakh situation. And as 
the U.S. and NATO presence draws down in Afghanistan, 
Azerbaijan's strategic role in protecting that northern supply 
route will be less over time. And finally, there has been 
increased international, not just U.S., focus on human rights 
and democracy in Azerbaijan.
    I think the far more important reasons for the 
deterioration are internal. There has been an attack on the 
double-standard the U.S. uses in its approach to the Ukrainian 
crisis compared to Nagorno-Karabakh. There has been a continued 
stress of unfairness of U.S. policy with sanctions under 907 of 
the Freedom Support Act compared to the assistance that we give 
to Armenia and to the regime in Stepanakert, Nagorno-Karabakh. 
There is a belief that the U.S. and Europe need Azerbaijani 
energy more today than Azerbaijan needs the kind of political 
support we provided in the 1990s and early 2000s to 
transporting these resources to market.
    Our continued support for U.S. NGOs in has increasingly 
been seen as a negative and led, I think, to this wave of over 
90 arrests and detention of Azerbaijanis who are opposing the 
regime.
    Global attacks, unprecedented during my time, on U.S. 
Government officials, including Ambassadors and the President 
of the United States have intensified. And we have mentioned 
the closure of the RFE/RL offices.
    As Dr. Altstadt pointed out, I am focused on the December 3 
statement by Ramiz Mehtiyev as indicating an end of the era of 
cooperation between the United States that was established 
during the presidency of Heydar Aliyev. Accusing the United 
States of fomenting color revolutions or creating PIF columns 
is not positive grounds for a good relationship.
    So, what can we do under these circumstances? I think it is 
time to set not a strategic partnership, but a limited set of 
attainable goals, support serious engagement by both Yerevan 
and Baku in reaching a negotiated settlement to the Nagorno-
Karabakh conflict, support stability in Azerbaijan by all 
means, but only through greater democracy and observance of 
international human rights standards, and release the political 
prisoners. Only then is it possible to talk about a strategic 
partnership.
    If we do not have progress in these areas, then I think it 
is time to consider sanctions, including travel and other 
sanctions on officials who are responsible for the arrest and 
detention of political prisoners, and consider a travel warning 
to Americans contemplating travel to Azerbaijan.
    I think we have reached the point in our relationship that 
it is time to be concerned about the people. That is why the 
release of the political prisoners is so important. These 
prisoners and their families and the American citizens, some of 
whom are here today, and their families deserve that kind of 
attention in our relationship that we have not given up to this 
point.
    Thank you.
    [The prepared statement of Ambassador Kauzlarich follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. I thank all the witnesses.
    I will just lead off on the questions. I will try to keep 
it to 5 minutes, so we all should have a chance before the 
votes that come up.
    Let me just note, as a former journalist, I am fully aware 
that, when you restrict people's right to criticize the 
government, it encourages corruption and it makes it more 
difficult to solve the problems that exist. So, there is an 
actual, besides just a principle of believing in freedom of 
speech, it serves the country which respects freedom of speech 
and freedom of the press. And I hope our friends in Azerbaijan 
understand that, can come to understand that, and especially 
because I am sure that there are people who are patriots in 
that country who are both in the government and outside the 
government that want what is best for their country.
    The criticism that has been leveled, even here today, was 
not leveled at trying to say that we don't like Azerbaijan and 
we think of them as an enemy. No, it is just the opposite. We 
want to create a pathway, so that 10 years from now we could 
have had a great relationship with a great country that is 
serving the purpose of peace and stability as well as 
protecting the rights of their own people.
    Let me ask a little bit about this. We know how Azerbaijan 
compares to the United States or Great Britain. How does it 
compare in human rights to Iran, its neighbor? Anybody want to 
answer that?
    [No response.]
    Don't all jump in at once. I mean, are there more human 
rights in Azerbaijan than in Iran, respect for the human rights 
there? Are there more----
    Mr. Cornell. Well, I think one way of answering that is 
seeing if people from Azerbaijan go to Iran, or vice versa, to 
get a breather. And as you know, a lot of people from Iran are 
buying apartments and the like in Azerbaijan in order to get 
out of Iran.
    I think it also depends on exactly what rights are talking 
about. Especially if you talk about religious rights, there is 
absolutely no comparison since Azerbaijan actually protects its 
people from religious extremism; whereas, Iran does the 
opposite.
    If you talk about other types of rights, you could have 
less of a----
    Mr. Rohrabacher. When I take a look, and as I mentioned in 
the opening statement, at the countries, the neighborhood that 
Azerbaijan is in, this is a very tough neighborhood, and I 
don't believe that any of those countries demonstrably have 
more respect for human rights than the Azeris have. That is not 
an excuse for it, but that is putting it in perspective.
    And we should not be singling out Azerbaijan. If we are 
going to have a solid commitment on human rights, which I 
believe in, we have to make sure that the people in the 
Azerbaijani Government know that they are not being singled out 
with a double-standard.
    And so, what about Armenia? It is my understanding that 
that is still a very repressive government in Armenia. How 
would you compare the human rights in Azerbaijan with Armenia? 
Anyone want to jump into that?
    Ambassador Kauzlarich. I have a little problem in 
comparing, you know, what about some other country. I mean, you 
can say that there are more political prisoners in Azerbaijan 
than there are in Russia and Belarus together.
    Mr. Rohrabacher. Okay. But the reason that comparison is 
made is because, without doing it, comparing it to its 
neighbors, it is automatically being compared to western Europe 
and the United States. I mean, automatically, that is our 
standard. And that may not be fair, unless we are willing to 
make sure that what we are demanding is of each and every one 
of those countries in the neighborhood.
    Ambassador Kauzlarich. And are we comparing it in terms of 
numbers of political prisoners, in numbers of opposition 
newspapers? I mean, these kinds of comparisons, there is not a 
recognized factor.
    Mr. Rohrabacher. There is not just one factor. Yes, there 
is a bunch of factors that play into that.
    Did you want to jump into that?
    Ms. Altstadt. Azerbaijan did join the Council of Europe and 
has been a signatory to other organizations which entailed that 
it commit itself to upholding human rights and democratization. 
And Iran, for example, has not done that.
    Mr. Rohrabacher. Of course.
    Ms. Altstadt. And so, it is important to note that 
Azerbaijan made these commitments and has not fulfilled them. 
That is at the most basic level.
    Mr. Rohrabacher. It is not really better to have a country 
that just thumbs their nose at anything in the West saying that 
we don't even respect your basic values that you're trying to 
push versus another country that says, well, we really believe 
in those, but, then, they fall far short of reaching the 
standard. Now those are the two things we face.
    Ms. Altstadt. That assumes that their signing it says that 
they are committed to those rights. I don't think we are seeing 
that.
    Mr. Rohrabacher. Okay. Well, I honestly believe we need to 
make sure human rights is a major part of our policy, but we 
have to make sure that governments like Azerbaijan, which have 
not reached that stage, don't think that we are singling them 
out because we don't like them for one reason or our Government 
is being manipulated by somebody who doesn't like them.
    About the OSCE, has Azerbaijan agreed or has there been an 
agreement with Azerbaijan with the OSCE about solving the 
Nagorno-Karabakh dispute? Have they agreed to allow the OSCE to 
try to find a solution? And has Armenia done that?
    Mr. Ambassador?
    Ambassador Kauzlarich. Yes, Mr. Chairman, the OSCE Minsk 
Group process, not to be confused with the one we are writing 
to Ukraine, has been in place for several decades. The United 
States, France, and Russia are co-chairs as mediators. And I 
think it is a misunderstanding that sometimes both Armenia and 
Azerbaijan engage in, as if the Minsk Group itself or the 
mediators are going to provide a solution. It is really they 
are providing the mechanism where Azerbaijan and Armenia can 
engage together in trying to find a peaceful solution to the 
conflict.
    Mr. Rohrabacher. But both have agreed to that?
    Ambassador Kauzlarich. Both have agreed to the process, but 
both have also agreed not to really made the political 
commitment necessary to solve the N-K problem. And that is why 
there is an impasse today. Neither Baku nor Yerevan have made 
the kind of commitment to solve the problem.
    Mr. Rohrabacher. I have used up my time.
    Mr. Meeks?
    Mr. Meeks. Thank you.
    So, we have various diplomats on the ground, as you once 
were, Mr. Ambassador. They have a wide variety of issues 
because of what they are focusing on today. We just had a 
newly-appointed, a newly-confirmed Ambassador last week who 
should arrive in Baku very shortly.
    I will start with asking all of you, what would you say our 
Embassy needs to do on the ground to help (a) improve the 
relationship and move things forward, as well as help and move 
things forward on the human rights front? Because the other 
concern is, how do the regional dynamics help or hurt the 
democratic principles of Azerbaijan, as indicated? You know, I 
don't know whether there has been some influence because of 
what has taken place in the Ukraine, for example. Does that 
play a role in it or not? What effect do Azerbaijan's 
calculations in balancing their positions because of their 
geographic proximity to Iran and Russian--how do these things 
play?
    Let's start with you, Ambassador.
    Ambassador Kauzlarich. Well, I am not going to say what the 
new Ambassador should do. [Laughter.]
    But I think this tripod that Dr. Cornell described, 
whatever your judgment is on the effectiveness, has to be in 
place for U.S. and Azerbaijani relations to go forward. What 
makes it so difficult for Ambassador Cekuta going in is that, 
unlike when I went to Azerbaijan, he is facing a less-favorable 
leadership toward strengthening U.S.-Azerbaijani relations. 
This Ramiz Mehtiyev piece was very telling in rejecting a lot 
of the values that President Aliyev has said that he endorsed. 
So, we are really in a very, very difficult place.
    And the regional balance question is not going away. I 
think they look at Ukraine and say, ``Well, you are trying to 
convince the Russians to give Ukraine back to--or give Crimea 
back to Ukraine. Why aren't you forcing Armenia to give 
Nagorno-Karabakh back to Azerbaijan?'' So, there is an issue, 
when they look at the world, of a double-standard.
    But, you know, the question of balance is going to be 
there, whatever the leadership, whatever the attitude toward 
human rights. It is just the neighborhood.
    Mr. Meeks. Dr. Cornell, anything else?
    Mr. Cornell. Yes, thank you for your question.
    I would say, first of all, that the problem is not with the 
Embassy, but with the fact that they don't have the backing 
from the higher levels of the U.S. Government in making this 
tripod work. The Embassy cannot do that by itself. The Embassy 
is not even involved in the talks over Nagorno-Karabakh with 
Armenia. That is a separate office in the U.S. Government, 
which is held by a very distinguished but mid-career diplomat. 
This is not a conflict that has been given the attention it 
deserves from the higher levels of the U.S. Government, 
especially if we know that the Russians are constantly involved 
and really don't want a solution to this.
    What I think the Embassy could do is to be more active in 
understanding the intra-regime politics of Azerbaijan. Dr. 
Altstadt referred to a pro-Moscow faction in ascendency. There 
are various parts of the Azerbaijani Government that have 
different ideas about where the country should go.
    The parts of the government, and not only government, but 
business and society, that don't necessarily want a western 
orientation very often are the ones that are involved in acts 
that we disagree with and that are not in conformity with 
Azerbaijan's international commitments. And sometimes it is 
done for exactly that purpose. So, we have to know why 
something is being done if we are going to find a way to 
respond to it.
    Mr. Meeks. Go ahead, Dr. Altstadt. Go ahead.
    Ms. Altstadt. Thank you.
    I have to say that in the many years I have seen the U.S. 
Embassy in Baku function, I have continually been impressed by 
the way that they have paid attention to what is going on 
inside Azerbaijan, the degree to which Ambassadors have tried 
to learn and use the Azerbaijani language publicly. And in 
terms of supporting human rights, many of the Ambassadors have 
actually visited the families of journalists that are being 
held in prison, and so on. And so, they have many, many tasks 
to perform, but I have been really impressed with how well they 
have functioned in the meantime.
    And I think that it is very important to note that, not 
only the government, but the public in Azerbaijan is extremely 
sensitive to the way the United States treats Azerbaijan and 
the other governments in the region and elsewhere. I think the 
reason for that is that they hold the United States to a higher 
standard. They expect more of us, and I think that is 
appropriate and we should live up to that.
    Mr. Meeks. Well, my other question was going to back to Dr. 
Altstadt also, but I am going to be brief because I know we 
have got votes coming up.
    Because I was wondering about it. I mean, should I take 
anything out of that 2 weeks ago the Azerbaijani delegation to 
the Parliamentarian Assembly of the Council of Europe, of 
course, spoke out for Russia and voted against sanctions for 
Russia. So, it does seem that Russia and Azerbaijan have 
exchanged a high-level delegation and launched out to venture 
to explore oil and gas.
    Now is that something that we should look at as far 
strained relations with the United States? Should that be 
something that we are concerned with? Or is that just being 
strategically trying to figure out where that balance is 
because they live next to this other big country?
    Ms. Altstadt. I believe in the case of Ilham Aliyev, like 
with his father Heydar Aliyev, whom he succeeded, that they are 
striving to find a balance. And at some point they need to do 
more things to accommodate Russian interests. And so, I find it 
worrying, on the one hand, that they are doing that. They also 
applied to join, as observers, to join the Shanghai Cooperation 
Organization. But, in the larger picture, I think it is part of 
a tilt toward Russia, but I don't see it as a radical change in 
direction over the long run.
    Mr. Rohrabacher. Thank you very much.
    Mr. Brooks?
    Mr. Brooks. Thank you, Mr. Chairman.
    I have been looking at on the internet stats about 
Azerbaijan. As I understand it, it is roughly a 9.4 million 
population, of which 95 percent is Islam of one kind or 
another. As I also understand, its leaders are elected. Is that 
correct?
    Ms. Altstadt. There are elections. [Laughter.]
    Mr. Brooks. There are elections? Okay. The way you answered 
that, what do you mean by ``There are elections.''? Are you 
telling me that there is a lot of fraud or that there is no 
competition or there is not more than one party? What do you 
mean?
    Ms. Altstadt. All of the international observers that have 
observed Azerbaijani elections have declared them to be not 
free and fair, for all of the reasons you suggested: The runup 
to the election, restrictions on opposition parties, carousel 
voting, and ballot stuffing during the polling itself, 
falsifications of every kind.
    Mr. Brooks. Is Azerbaijan now a threat to any other nation? 
Please.
    Ambassador Kauzlarich. Because of this unresolved conflict 
regarding the Nagorno-Karabakh region, there is the great 
threat of a military conflict resuming again with Armenia.
    Mr. Brooks. When was the last time there was a military 
conflict between Armenia and Azerbaijan?
    Ambassador Kauzlarich. There has been a ceasefire in effect 
since 1994, Russian-imposed, by the way. But, in recent months, 
there has been an increase in military action from both the 
Armenian and the Azeri side, resulting in deaths of military 
and civilians on both sides.
    Mr. Brooks. And are there any other countries that are 
threats to, in your judgment, Azerbaijan?
    Ms. Altstadt. I think Russia is potentially a threat. I 
think that in more subtle ways Iran is potentially a threat.
    But I do want to emphasize, sir, that even though they are 
a Muslim-majority country, it is highly-secular society, and it 
has been secular because of indigenous secular movements since 
the 19th century.
    Mr. Brooks. What do you mean by the phrase ``highly-
secular''?
    Ms. Altstadt. In other words, the degrees to which the 
people adhere to Islam, the forms that it takes, and the public 
practice, all are on a very wide range, as we might find in the 
United States in terms of people who adhere to particular 
religions, and some go to church every Sunday and some show up 
faithfully on Christmas Eve. So, there are those kinds of 
differences.
    But the real, I think, politically-important question is 
political Islam and whether there is a political use of Islam, 
and that is much less. And even for those situations, the 
degree to which it is radical is an even smaller amount. It is 
very difficult to measure, however, because research on that 
topic is, of course, very sensitive, and it is very difficult 
for anyone to do.
    Mr. Brooks. My next question may be a little bit difficult 
for you. But I am from a community that has the highest number 
of engineers per capita in the United States, a lot of 
scientists, physicists, highly-educated people who like 
numbers. And so, I am going to ask you to try to rank on a 
scale of 1 to 10, where 1 is no substantive relationship to 10 
is a great relationship. Now how would you rate today the 
relations between America and Azerbaijan?
    Dr. Altstadt, we will start with you first. On a 1-to-10 
scale, give us a feel.
    Ms. Altstadt. So, 1 is no meaningful relationship and 10--
--
    Mr. Brooks. Yes, ma'am.
    Ms. Altstadt [continuing]. Is wonderful relationship?
    Mr. Brooks. Yes, ma'am.
    Ms. Altstadt. For quality or quantity?
    Mr. Brooks. Quality.
    Ms. Altstadt. 7, 6.
    Mr. Brooks. A 7. So, it is pretty good? Better than 
average, in your judgment, the relations between America and 
Azerbaijan? Five would be average.
    Ms. Altstadt. Well, let me revise that and say 5.
    Mr. Brooks. 5? Okay, about average.
    Dr. Cornell?
    Mr. Cornell. 5.
    Ambassador Kauzlarich. 3\1/2\.
    Mr. Cornell. 3\1/2\? Why do you say 3\1/2\ versus these 
others who suggest that it is about a normal American versus 
another country relationship?
    Ambassador Kauzlarich. Because in my two decades' 
experience there has been no senior Azerbaijani political 
figure who has written a document that attacks the United 
States and its leadership. That is not a sign along with 
accusing us of being involved in fomenting yellow or color 
revolutions.
    Mr. Brooks. I caught on a comment by Dr. Cornell that 
America's presence must once again be felt in the region. And 
as we all know, America has limited resources. We have limited 
money, limited military. We have engagements all over the 
world, relationships all over the world.
    Why should America divert our limited resources from other 
hotspots in the world or from other places where we want to 
have relationships to Azerbaijan? What is our national 
interest?
    Mr. Cornell. Let me answer that very briefly. I think the 
first part of the answer is that this is not about money. This 
is about political leadership and attention, which we used to 
have, which we don't anymore.
    The second part is that the reason is, as I described 
initially, that you have a country and a region which is a 
factor in both of the major issues facing the Transatlantic 
Alliance, which is the expansionism of Russia and the Islamic 
radicalism of the Middle East. And Azerbaijan and the whole 
region of the Caucuses in Central Asia is a potential bulwark 
against both of those.
    I will end by saying that the experience of 9/11 showed 
that cultivating relations with these countries became a 
crucial asset in prosecuting the war in Afghanistan. Mr. 
Chairman himself used the word ``irreplaceable'' for that, the 
level of support, the air corridor through Azerbaijan, which 
enabled the U.S. to deploy military resources in Central Asia 
and Afghanistan.
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Now we have a vote coming. It is my intent 
to have the ranking member have his closing statement and, 
then, the chairman--that's me--will have a closing statement.
    Mr. Meeks. I just want to, you know, because I am trying to 
be as balanced as we can, because the flip side, I had asked 
the question about Russia.
    Had we had more time, I wanted to ask a question about Iran 
because the relations between Azerbaijan and Iran have been 
tough also, and Islamic Republic, they have been capriciously 
unhappy, I believe, with the secular Azerbaijan and have not 
spared any effort to undermine its very foundations of 
Azerbaijan society. And Azerbaijan's close ties with Israel--
they have close ties with Israel--and the West have been met 
with hostility, too, by Iran.
    So, as the administration talks to Iran over its nuclear 
program, you know, if we had time, the question is, how does 
this engagement influence regional dynamics in the South 
Caucuses and, in particular, the Iranian policies vis-aa-vis 
Azerbaijan?
    Because what I really, if we had time to highlight it, 
there is pressure. The reason I asked the Russian question is 
because sometimes in the region, they are a big country in the 
region, so they have got to figure out how to work with Russia 
and not just say, ``We are not going to work with them at 
all.''
    On the other side they have got Iran who does not like 
their relationship. So, they have got to figure out how to live 
in that world.
    So, Azerbaijan is kind of squeezed, you know, in the middle 
there in trying to determine how they can survive in the middle 
of these two and, yet, still be a great friend or, as you have 
said, most of you, an average friend to the United States.
    So, I conclude just by saying that we have got to work 
together. It is important that we work together, that we 
improve the relationship. And when you are friends and allies, 
you know, I don't want folks to think that is when you just 
say, ``Look,'' to your friend, ``I want to help you with 
whatever deficiencies you have.'' Because I understand, from my 
perspective, we in the United States still are trying to 
improve also with reference to our human rights issues that we 
still have in this country.
    Mr. Rohrabacher. Thank you very much, Mr. Meeks.
    We will be going down to the Floor to demonstrate how 
people with different views can work together.
    Well, that was a joke, actually. [Laughter.]
    With that said, I think that Azerbaijan is a very 
significant country to the well-being of the United States and 
the stability of the world. We wish them well. We think it 
would be better for them and everybody if they would be, as I 
say, a little less thin-skinned about criticism and wouldn't go 
after people because they are criticizing. We recognize that in 
America as something that helps us perfect ourselves, helps us 
solve the problems by knowing about them.
    But Azerbaijan, we have to make sure that we are not 
singling out a friendly country which is surrounded by 
basically countries that aren't necessarily friendly to our 
interest and friendly to the United States, singling them out 
to try to attack their flaws in a way that will weaken them in 
relationship to the others in their neighborhood. This is 
something that requires a great deal of soul-searching as to 
where to draw the line.
    We appreciate your guidance today from the witnesses on 
helping us make that decision as to how we will draw that line 
and set the policy that will stay true to our principles of 
liberty and justice while still watching out for our national 
interest to keep a stable part of the world right there. 
Because if Azerbaijan would go the direction of Iran, and if 
radical Islam would sweep into Central Asia, the world would 
not be a decent place to live in 30 years from now or even 20 
years from now.
    We saw that happen when little nut-cases in Germany took 
over the government and we ended up in a conflagration. Well, 
radical Islam poses that same kind of--you know, these are 
fanatic people, and if they get control of Central Asia as well 
as perhaps the Middle East, it will be a totally different 
world, and not a good world.
    So, let's work with those people who will work with us. 
Hopefully, we can nudge our friends to go in the right 
direction.
    So, thank you all for your advice on how to draw that line 
and achieve that goal.
    This hearing is now adjourned.
    [Whereupon, at 2:03 p.m., the meeting was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Material submitted for the record by the Honorable Dana Rohrabacher, a 
Representative in Congress from the State of California, and chairman, 
         Subcommittee on Europe, Eurasia, and Emerging Threats

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Material submitted for the record by the Honorable Dana Rohrabacher, a 
Representative in Congress from the State of California, and chairman, 
         Subcommittee on Europe, Eurasia, and Emerging Threats

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
